<html>
<title> - THE FUTURE OF AIR FORCE LONG-RANGE STRIKE--CAPABILITIES AND EMPLOYMENT CONCEPTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                               

                         [H.A.S.C. No. 114-47]

                     THE FUTURE OF AIR FORCE LONG-

           RANGE STRIKE--CAPABILITIES AND EMPLOYMENT CONCEPTS

                               __________

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 9, 2015


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                ___________
                                
                                
                         U.S. GOVERNMENT PUBLISHING OFFICE
96-238                       WASHINGTON : 2016                         
  
  
_________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d6b1a6b996b5a3a5a2beb3baa6f8b5b9bbf8">[email&#160;protected]</a>  
  
  
 


             SUBCOMMITTEE ON SEAPOWER AND PROJECTION FORCES

                  J. RANDY FORBES, Virginia, Chairman

K. MICHAEL CONAWAY, Texas            JOE COURTNEY, Connecticut
BRADLEY BYRNE, Alabama               JAMES R. LANGEVIN, Rhode Island
ROBERT J. WITTMAN, Virginia          RICK LARSEN, Washington
DUNCAN HUNTER, California, Vice      MADELEINE Z. BORDALLO, Guam
    Chair                            HENRY C. ``HANK'' JOHNSON, Jr., 
VICKY HARTZLER, Missouri                 Georgia
PAUL COOK, California                SCOTT H. PETERS, California
JIM BRIDENSTINE, Oklahoma            TULSI GABBARD, Hawaii
JACKIE WALORSKI, Indiana             GWEN GRAHAM, Florida
RYAN K. ZINKE, Montana               SETH MOULTON, Massachusetts
STEPHEN KNIGHT, California
STEVE RUSSELL, Oklahoma
                Bruce Johnson, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                        Katherine Rember, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Courtney, Hon. Joe, a Representative from Connecticut, Ranking 
  Member, Subcommittee on Seapower and Projection Forces.........     2
Forbes, Hon. J. Randy, a Representative from Virginia, Chairman, 
  Subcommittee on Seapower and Projection Forces.................     1

                               WITNESSES

Elder, Lt Gen Robert J., Jr., USAF (Ret.), Ph.D., Faculty, George 
  Mason University...............................................     3
Grant, Rebecca, President, IRIS Independent Research.............     6
Gunzinger, Mark, Senior Fellow, Center for Strategic and 
  Budgetary Assessments..........................................     4

                                APPENDIX

Prepared Statements:

    Elder, Lt Gen Robert J., Jr..................................    27
    Grant, Rebecca...............................................    49
    Gunzinger, Mark..............................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................    57


 
THE FUTURE OF AIR FORCE LONG-RANGE STRIKE--CAPABILITIES AND EMPLOYMENT 
                                CONCEPTS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Subcommittee on Seapower and Projection Forces,
                      Washington, DC, Wednesday, September 9, 2015.
    The subcommittee met, pursuant to call, at 2:02 p.m., in 
room 2212, Rayburn House Office Building, Hon. J. Randy Forbes 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. J. RANDY FORBES, A REPRESENTATIVE 
     FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Forbes. Today the subcommittee meets to discuss the 
future of Air Force long-range strike capabilities and 
employment concepts. Our distinguished panel of guests 
testifying today includes Lieutenant General, retired, Robert 
J. Elder, Jr., Ph.D., faculty, George Mason University; also 
Mr. Mark Gunzinger, a senior fellow at the Center for Strategic 
and Budgetary Assessments; and Dr. Rebecca Grant, president, 
IRIS Independent Research.
    These distinguished guests, we are glad to have you here. 
You have all done a lot of great work, and we look forward to 
your testimony this afternoon.
    During World War II, America gained the ability to strike 
targets at long range with its massive bomber force. The Air 
Force flew thousands of conventional daylight precision bombing 
missions over Europe and Asia. Crossing thousands of miles of 
ocean, the war in the Pacific was brought to a decisive end by 
the nuclear strikes on Hiroshima and Nagasaki. From that point, 
the United States maintained the robust conventional and 
nuclear long-range strike capabilities needed to deter the 
aggression of hostile states and assure the security of our 
allies around the globe.
    As the threat environment evolved, so have our 
capabilities. Stealth and precision standoff weapons enable our 
Navy and Air Force to penetrate anti-access environments. Our 
increasing ability to process, exploit, and disseminate 
intelligence, surveillance, and reconnaissance information 
helps deter future conflicts and deescalate regional tensions.
    That said, our long-range strike capabilities must evolve 
further to address the range of challenges posed by the rapid 
and threatening rise of China; a resurgent and expansionist 
Russia; a subversive and terrorist-supporting Iran; and an 
unpredictable and provocative North Korea. China, Russia, and 
North Korea are established nuclear powers, and Iran, 
regardless of the negotiated P5 agreement, remains a nuclear 
threat in the not-so-distant future.
    Adding to this complex security environment, I am concerned 
about Russia and China rapidly fielding highly capable 
integrated air defense systems and other anti-access 
capabilities. The proliferation of these weapon systems is 
eroding our ability to perform long-range strike with our 
legacy bomber fleet and standoff precision weapons, thus 
diminishing our ability to deter and respond to aggression.
    The current state of our bomber force is of great concern. 
The newest B-52 bomber is 53 years old. In at least one Air 
Force family, three generations of airmen have piloted the 
Stratofortress in combat engagements from Vietnam to Enduring 
Freedom. As of September 2015, our Air Force bomber force 
structure consists of 158 <dagger> total bombers--63 B-1s, 20 
B-2s, and 76 B-52 aircraft--with an average age of 39 years. Of 
the total, only 96 are currently funded for combat service.
---------------------------------------------------------------------------
    <dagger> Correction for the record: The total number of bombers is 
159.
---------------------------------------------------------------------------
    The Air Force plans on recapitalizing B-1 and B-52 force 
structure with a smaller fleet of 80 to 100 Long-Range Strike 
Bombers. As we grapple with the proliferation of anti-access 
systems in contested environments, dwindling force structure, 
and continuing budget constraints and uncertainty, it is 
critically important that we identify the long-range strike 
capabilities and concepts that we need for the future.
    Once again, I want to thank our witnesses for participating 
in our hearing this afternoon, and I look forward to discussing 
this important topic.
    With that, I turn to my good friend and colleague the 
ranking member of the subcommittee, Joe Courtney.

     STATEMENT OF HON. JOE COURTNEY, A REPRESENTATIVE FROM 
   CONNECTICUT, RANKING MEMBER, SUBCOMMITTEE ON SEAPOWER AND 
                       PROJECTION FORCES

    Mr. Courtney. Thank you, Mr. Chairman, and thank you for 
holding this hearing on our Air Force long-range strike 
capabilities. Given the impending award of the contract for the 
Long-Range Strike Bomber in the coming weeks, this is an 
excellent opportunity to discuss the future of this critical 
part of our Nation's power projection abilities.
    The Air Force long-range bomber fleet has long provided our 
Nation with a flexible and effective deterrent tool. From 
composing one the three legs of our strategic triad to 
providing a full complement of conventional long-range strike 
options for decision makers, the ability to project power and 
convincingly strike from far distances is one of the most 
important components of our military arsenal today.
    Our long-range strike fleet, composed of our B-52s, B-1s 
and B-2s, are also amongst the oldest aircraft inventory today. 
However, the current timeline projects that the Long-Range 
Strike Bomber will not actually be ready for operations until 
2030, adding 15 years to the average ages of our existing 
bombers, effectively making the B-52 eligible for Social 
Security by the time the Long-Range Strike Bomber comes online.
    I am interested in hearing from our witnesses about the 
kinds of ideas they have in regards to sustaining our current 
fleet in the years before the new bomber comes on line as well 
as lessons that we should draw from the longevity of these 
aircraft as they would apply to this new class. The strategic 
importance of demonstrating our Nation's long-range strike 
capability cannot be overstated, especially as it applies to 
the Asia-Pacific region. As noted by one of our witnesses 
today, Lieutenant General Elder, our bombers were an important 
part of deterring North Korean sabre-rattling in 2013. When B-
52 bombers flew 6,500 miles from Missouri to South Korea to 
drop bombs on a test range, North Korea quickly toned down its 
threatening rhetoric, and the bombers effectively deterred 
further provocation in a volatile region.
    As our near-peer competitors, especially China, develop 
formidable anti-access/area denial technologies, our ability to 
maintain a military advantage hinges on our ability to 
penetrate those defenses. I hope our witnesses will share their 
views with the committee on how the Long-Range Strike Bomber 
and long-range strike capabilities generally fit into the 
strategic priorities of the Asia-Pacific rebalance.
    This new program is going to occur at a time of intense 
budget pressure, not just within the Air Force alone but also 
the entirety of the Department of Defense. Yet, with the 
aircraft expected to be in service well into this century, it 
is important that we get this right. As such, it is important 
that this panel and this Nation fully understand the challenges 
ahead and the options available to ensure that we retain a 
credible and robust long-term strike capabilities well into the 
future.
    Thank you again, Mr. Chairman, and I look forward to the 
discussion today.
    Mr. Forbes. Thank you, Joe.
    And I guess we are going to line up.
    If you guys are comfortable, we will start with General 
Elder and work our way across.
    General, we look forward to any comments that you may be 
willing to offer us today.

 STATEMENT OF LT GEN ROBERT J. ELDER, JR., USAF (RET.), PH.D., 
                FACULTY, GEORGE MASON UNIVERSITY

    General Elder. Thank you, Mr. Chairman and Mr. Courtney, 
members of the committee, it is a privilege to have been 
offered this opportunity to talk with you today about the value 
of the Long-Range Strike Bomber to U.S. national security. As 
both of you have already mentioned, our capabilities are 
withering, and we have less than 100 combat-ready bombers with 
an average age of 38 years.
    Quite frankly, the older bombers we have are simply not 
survivable in the face of modern air defenses. And as you 
pointed out, we are going to have to live with them for quite a 
bit longer. The newer B-52s remain potent but are few in 
number. And my belief, quite frankly, is the 80 to 100 aircraft 
number is not going be enough to replace the B-1, B-52 fleet, 
even though its capability against a target set will be 
greater, but what amounts to the rotational commitments, it is 
not going to satisfy that.
    Unlike most military systems which are designed to provide 
utility for a small number of missions, bombers provide value 
in time of peace, crisis, and conflict. It takes many different 
platforms combined to do all the things that a bomber can do. 
Long-range strike bombers serve as a global strike air sensor 
platform, but they are distinctly capable of providing a range 
of effects against dynamic targets anywhere on the globe, and 
they can use their own organic queuing.
    Study after study has shown that bombers do more than 
simply strike targets. They offer structural stability for both 
conventional nuclear scenarios and, as you point out, provide 
the most flexible component of the U.S. strategic triad. And 
they are the best way to reassure allies of our commitment to 
extend a deterrence because they can signal. In other words, 
the bomber is more than just a strike and sensor platform; it 
is also a powerful tool of diplomacy.
    Long-range strike capabilities provide the Nation practical 
alternatives for global security and regional stability and 
provide combatant commanders increased effectiveness in the 
conduct of joint operations across the full range of conflict. 
They are absolutely critical for our national security. Because 
of their versatility, I believe they provide the Nation 
exceptional value, and I look forward to getting your 
questions, Mr. Chairman.
    [The prepared statement of General Elder can be found in 
the Appendix on page 27.]
    Mr. Forbes. General, thank you.
    Mr. Gunzinger.

    STATEMENT OF MARK GUNZINGER, SENIOR FELLOW, CENTER FOR 
              STRATEGIC AND BUDGETARY ASSESSMENTS

    Mr. Gunzinger. Yes, Chairman Forbes, Ranking Member 
Courtney, members of the subcommittee, thank you as well for 
inviting us to talk to you today about this really important 
topic.
    I would like to suggest a framework that might help you 
think about the LRS-B [Long-Range Strike Bomber] and other 
capabilities in the long-range strike family of systems. Now 
what I postulate is two competitions. One we call the hiders-
finders competition; the other is a salvo competition.
    Now the hiders-finders competition, what that is about is 
developing the capabilities to penetrate contested airspace, 
contested areas, and an enemy, a thinking enemy who develops 
countermeasures. It is a cycle. As we develop advantages, they 
develop countermeasures. Keeping advantage in that cycle in 
this competition is critically important.
    In the 1950s, for example--the B-52 was designed about 
then; 1952 I think was the first flight--the most significant 
threat to our bombers was aircraft, interceptors, and surface-
to-air fires--artillery. So the B-52 was designed to fly at 
high altitudes, and they gave it a gun in the tail to defend 
against fighters until SAMs, surface-to-air missiles, came on 
the scene in the latter half of that decade in the early 1960s. 
So the Air Force adapted and started flying B-52s at low 
altitude so it could terrain mask and hide in ground clutter, 
and fighters couldn't find them effectively, and it designed 
the B-1 to be a low-altitude, high-speed sprinter to penetrate 
contested airspace.
    Until, about 1979, DOD [Department of Defense] announced 
that, well, Russia, or the Soviet Union has developed ``look-
down/shoot-down'' radars for its fighters, capable of fighting 
our bombers at low altitude. So they started a program called 
the Advanced Technology Bomber Program, which led to the B-2 
program to buy 139 B-2s to replace the B-52, and that would be 
a high-altitude stealthy penetrator. 1990, end of the Soviet 
Union, we essentially disengaged from this competition. DOD 
shifted its attention from preparing to fight two regional 
conflicts against North Korea, Iran, Iraq. They didn't have 
advanced air defenses, so while it continued to invest in 
stealth technologies for future platforms, it stopped the B-2 
buy at 21 aircraft. And it also shifted the weight of its 
effort in terms of strike campaigns toward its fighter forces 
under the assumption that, well, we will be able to deploy our 
fighter forces very quickly into a theater of conflict, stage 
them at bases on the borders of our enemies; to bring the high-
volume fires. We just didn't need the bombers to do that after 
the opening stages of a conflict.
    The problem is our competitors didn't stop. China, Russia, 
Iran, and others have developed advanced air defenses--
developed them or bought them--that are a real challenge to our 
current force. So while we modified our current bomber force to 
stay current and give it new radars and so on over the 
intervening years, we didn't invest in a new bomber.
    Now the second competition is what we call the salvo 
competition, and that occurs between two adversaries who both 
have PGMs [precision guided munitions], not just the ability to 
attack with precision but also defend against the PGMs of an 
enemy. That is the situation we have today, certainly with 
Russia, China, North Korea, and Iran. They have capabilities to 
attack our bases in the western Pacific and the Middle East, 
all of them. So the assumption DOD made in the 1990s, it said: 
Well, we will rely mostly for strike on our fighters, and we 
will stage them really close to bases. Those bases are now at 
risk. That is an increasingly risky proposition. But we can 
compensate for that by beginning to use bases that are further 
away from our adversaries that, frankly, are out of the most 
immediate threat, out of range of those short-range cruise 
missiles and ballistic missiles.
    And we can also disperse our fighter forces at those close-
in bases to expeditionary airfields, civil airfields suitable 
for military use, as well as military airfields, to complicate 
the targeting problem of our enemies who have their own PGMs. 
So what this suggests, both the hider-finder competition and 
the salvo competition, is we might start thinking about 
reversing priorities that we established for bombers and 
fighters back in the 1990s.
    Perhaps future air campaigns, the weight of the strike 
should be provided by long-range strike capabilities. They are 
stealthy and have large payloads staged at more distant bases. 
Whereas our fighters at the close-in dispersed posture provide 
counter-air, help kick down the door, provide close-air 
support, and other missions rather than relying on those 
fighters, which have about one-tenth the payload of a bomber 
and one-fifth the range of a bomber primarily for strike.
    The Air Force has made a great start--and DOD has as well--
at reengaging in both these competitions with the LRS-B, but it 
is just a start, and it is only one element of a long-range 
strike family of systems, which I hope we can get into in your 
questions. Thank you.
    [The prepared statement of Mr. Gunzinger can be found in 
the Appendix on page 35.]
    Mr. Forbes. Thank you, Mark.
    Dr. Grant.

    STATEMENT OF REBECCA GRANT, PRESIDENT, IRIS INDEPENDENT 
                            RESEARCH

    Dr. Grant. Thank you very much for the opportunity. As my 
colleagues have said, America's bomber force is one of the 
truly unique tools of our national security and our 
international diplomacy. Sadly, today we have at any one time 
only 16 combat-ready B-2 bombers that are able to take on the 
most heavily defended types of targets, and it is this 
situation that we are setting out to correct.
    I want to speak very briefly to the capabilities and 
employment concepts of the bomber and then touch on how the Air 
Force will manage this program. The first capability, of 
course, is access, and that does still very much mean stealth. 
Stealth remains a fundamental design requirement, and we should 
expect to see improved stealth techniques that have advanced 
beyond the B-2 and will include electronic warfare and other 
state-of-the-art survivability techniques.
    Range and payload, of course, are what define a bomber and 
separate it from other types of aircraft. Recall that every 
bomber design has had to make a tradeoff from the B-17 right to 
the B-2. So we may expect to see, of course, excellent range, 
but that will be defined as range from leaving the tanker 
track. Payload will be a mix of munitions, both the small 
precise munitions and the heavy munitions for hardened and 
deeply buried targets. We don't know what parameters the Air 
Force has chosen this time, but we will expect to see something 
that has blurred the distinctions between global and theater 
attack.
    Also I think highly important and new in this Long-Range 
Strike Bomber program will be an open software architecture. 
That will be very important because this bomber will be new in 
its communications and data link relay abilities. It should be 
able to immediately join not only the SATCOM [satellite 
communications] but the aerial layer networks, those IP 
[Internet Protocol]-enabled networks that now define the gold 
standard in battlespace communications.
    We expect, of course, for this bomber to roll off with the 
basics of nuclear capability installed but to proceed to 
certify that capability quite a bit later after it completes 
initial flight tests. Most of all I want to see some upgrade 
capacity here in the winning design. Our bomber will reach 
initial operating capability perhaps in the mid-2020s--or just 
a touch later--but continue to operate and fly missions until 
2055 and beyond. This bomber, therefore, has to have the 
ability to do what is asked of it now and also to do a bit more 
as we look for upgrades and new mission capabilities over time. 
That means planning now for the airframe with the classic 
power, space, and cooling, and ability to accommodate those 
upgrades.
    What will this bomber do specifically? It will, of course, 
participate in the battlespace under joint force commander 
direction. It will draw on ISR [intelligence, surveillance, 
reconnaissance], on tankers, and many other things. It will be 
dependent on stealth fighters, too. But it will have some very 
unique roles, and those include direct attack; the ability to 
drop a bomb; not a cruise missile, per se, because cruise 
missiles are--and other standoff weapons--are not always of 
capable of taking out every type of target this bomber may be 
assigned to strike.
    We expect that targets in the future that are the most 
difficult will be a combination of mobile and of separate 
deeply buried targets. This is a very tough target set, and we 
need a penetrating bomber with the ability to take out those 
targets and hold them at risk. We also will see perhaps 
extensive target sets. A consideration we might not have 
thought through 5 years ago, but the bomber force here remains 
a unique strategic tool. It will have to do things like 
suppress airfields; counter enemy air defenses; and perhaps 
help hunt, destroy, and contain enemy surface naval vessels and 
submarines. This points us towards a highly capable force but 
one that also is big enough to be persistent across these 
missions. And I echo General Elder's concern; 80 to 100 is a 
start. I think closer to 150 might be better to assure the 
persistence in sortie generation.
    Let me conclude with a remark about risk reduction and how 
the Air Force will manage this program. We all are awaiting a 
down select, and we want to see the best possible stewardship 
of this important national security capability. The Air Force 
says that it has taken a rather different approach with this 
bomber. It has funded both teams to conduct extensive risk 
reduction of the designs. What this means to us is that the 
winning design will be far more mature than other types of 
aircraft programs. And specifically, I believe, quite a bit 
more mature than the B-2 at a comparable stage of development. 
This winning design should go into EMD [engineering, 
manufacturing, development] with some critical work already 
carried out. For instance, the Air Force has said that they 
have identified specific risk areas to include propulsion 
integration--that is the engines--and integration of apertures 
and antennae, and conducted specific risk-reduction work in 
these areas. This again marks a bold and different approach, 
something quite distinct from what we saw with B-2, F-22, or F-
35. This means that the Department of Defense's final choice of 
a winner should reflect analysis of capability, of the ability 
to proceed quickly through engineering, manufacturing, and 
development. And it should also reflect some analysis of the 
winning team's ability to proceed directly toward 
manufacturing.
    To sum it up, the Air Force appears to have taken a rather 
bold approach, and what this means is we should expect to see a 
far more mature design. That should also give us in the end 
confidence in two things: One is the ability to adhere to cost 
targets from the EMD phase forward; and the second is that the 
Air Force should be certain that its winning design really has 
those mandated capabilities and the extra margins that it 
needs, not only for upgrade capacity for the future, power, 
cooling, et cetera.
    Of course, there are many things in the end that can affect 
a program, but the risk reduction is unique in this case, has 
been carried out with a great deal of forethought, and I think 
should give us a very confident basis from which to proceed to 
develop a new Long-Range Strike Bomber. Thank you.
    [The prepared statement of Dr. Grant can be found in the 
Appendix on page 49.]
    Mr. Forbes. Before we go to Mr. Courtney for his questions, 
can all three of you give us your thoughts about what happens 
if we don't get this long-range strike capability? And number 
two, how do you assess so far the process that we've used to 
get here as you look at the Air Force and what they have done? 
What is your thought on that?
    General Elder.
    General Elder. Mr. Chairman, that is an interesting 
question, I think the Nation will be in quite a bind, quite 
frankly, particularly with the threats that you highlighted in 
your initial marks, if we don't get this new capability, the 
Long-Range Strike Bomber. There is a perception that things 
aren't too bad right now. We seem to be holding things in check 
with the current force structure, but the reality is that our 
adversaries do know how to go after our strengths. They are 
looking for ways to exploit that. Actually, as Mark Gunzinger 
pointed out, this going back and forth, the LRS-B is a huge 
jump over where they are in terms of their ability to counter 
it. So it will be important from that standpoint.
    I also believe that as a Nation the types of things we do 
when we talk about our ability compared to others, what perhaps 
makes this a superpower is this capability to operate globally. 
And these other airplanes we have are getting too old, and so 
we basically will wither down to where we basically in the 
future will only have the B-2 fleet and then forces that we can 
deploy. These deployable forces are very important, that they 
provide a capability to operate globally, but they don't give 
you a global capability. And certainly from a time standpoint, 
in terms of giving options to the President, any adversary 
knows that there is going to be this long period of time before 
you would be able to get there. I think that is going to raise 
huge concerns among our allies, who are counting on us not only 
in some cases for nuclear umbrellas but also for kind of a 
strategic stability globally. And, of course, the bombers have 
been working for years now with the sea forces in terms of 
providing stability. Particularly in the Pacific, but not only 
there, in Europe and the Central Command region as well. So I 
think it would be disastrous for the Nation's force not to get 
this new airplane. It will be critical to our national security 
in the future.
    In terms of the process that was used. It is interesting 
that one of the challenges we have had when you try to bring 
out these new technologies and you want these new technologies 
to give you this asymmetric advantage, that asymmetric 
advantage works for a period of time until the adversary knows 
what they are, and then they are going to start trying to work 
these counters. So the one good thing about this approach for 
sure is that this whole period of time, the adversary knows 
that something new is being developed, but they have no 
opportunity to even start thinking about how they might counter 
it. There is a lot of discussion about ways it can be 
approached, but those things all depend on pretty fragile 
knowledge of how that would happen. So from a standpoint of 
trying to protect the way this airplane is going to give us 
this asymmetric increase in capability, I think it is a good 
thing we have done this because it basically saves the 
government a lot of money. It also means that when this 
airplane is produced, it has quite a bit more capability from 
the get-go.
    The second thing, which is actually something that Dr. 
Grant pointed out, the airplane is designed to be able to 
continue to evolve with technology and with new threats because 
of the open architecture design. And so once the airplane is 
something that people can actually see and our adversaries can 
see, we will know that they will start working to look at ways 
to counter that. But it will be much easier with this platform 
than platforms we have had in the past to be able to bring 
those changes in and continue to maintain the LRS-B as a 
relevant platform for a very long time.
    Mr. Gunzinger. Excellent question. I am going to give you 
the U.S. perspective--our U.S. perspective--and an enemy's 
perspective on this question. First, we throw around numbers 
about the size of the force, and how many are combat capable 
and total aircraft inventory and so forth. Today our Nation can 
launch about 12 B-2 sorties on any given day. If B-2s have to 
operate from Guam or Diego Garcia in the Indian Ocean, that is 
about 12 sorties. That is our Nation's long-range penetrating 
strike capability and a handful of standoff cruise missiles. If 
we don't buy the LRS-B, well, the B-2 eventually will not be 
able to penetrate into China, into Iran, and some other areas. 
The B-1s and B-52s already can't penetrate into those higher 
threat areas. So we will be a Nation that will be able to fight 
on the periphery of some of our potential adversaries in the 
future.
    From the enemy's perspective, it would create a one-
dimensional problem for them. All they have to do is defend 
against these standoff capabilities. They can project power out 
to attack our bases, to attack our aircraft orbiting to launch 
standoff cruise missiles and so forth. They don't have to 
defend their interior. Those deep targets are not at risk. So 
they can pour their money into their outer defenses and into 
offensive capabilities instead of having to defend their 
interior. So that would not help us impose costs on an enemy at 
all.
    Mr. Forbes. Dr. Grant, how do you assess where the Air 
Force has come so far in this process?
    Dr. Grant. In the process? In my opinion, the Air Force has 
taken a very deliberate and careful path. It has chosen an 
unusual and very, I think, successful acquisition strategy as 
it works through the process of taking the two teams down to 
contract award.
    I personally wish that the Air Force and the Department of 
Defense would minimize some of the classification around the 
acquisition aspects of the program, obviously not jeopardizing 
national security capabilities, but I would like to see the 
Department of Defense tell us a bit more about how they have 
conducted this process. Based on what the Air Force has said, 
they have taken unusual steps to take risk reduction much 
further than in any program we have seen in many a decade.
    Mr. Forbes. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    In terms of just trying to assess the value, which the 
chairman's first question certainly zeroed in on, obviously, 
this program's ability to operate jointly with other branches 
in terms of the Navy or ground forces, I was just wondering if 
you could maybe help us sort of understand the value from that 
aspect.
    General Elder. That is a great question, and one of the 
things about this particular airplane--although when you are 
operating in a contested environment and people are shooting at 
you, you definitely don't want to present yourself as an easy 
target. But if you were to look today, even where it is 
relatively an uncontested environment in Afghanistan and you 
look at where the bulk of support to our ground forces is 
coming from, it is actually coming from B-1s that are providing 
that close air support. That wasn't something that was really 
that easy to do before we had the weapons we have today. They 
have the same type of targeting pods that the fighters have; 
they have the GPS [Global Positioning System]-guided weapons. 
The big thing they can do is they can persist for a long time 
and get there quickly. And because of that, you can provide 
quite a bit of coverage. So it is invaluable from that 
standpoint.
    If this were a contested environment, those airplanes 
wouldn't be able to just loiter there because they would become 
targets themselves. So having that advanced stealth, while not 
going to be a panacea, but they will have a capability to 
operate that our current platforms would have difficulty being 
able to operate in. From a naval standpoint, there is a 
different way of looking at this, and it goes back to all 
those--I guess it is going a little bit out of vogue now, the 
whole AirSea Battle.
    But there are advantages to air forces and vulnerabilities, 
and there are advantages to sea forces and vulnerabilities. But 
it turns out that when you put those together, they are 
actually pretty complementary, and that was the whole idea 
behind AirSea Battle: Let's take advantage of some of the 
things that the maritime force can do to help make the air 
forces be more effective and vice versa. This platform 
operating in conjunction with maritime forces is going to be 
able to do quite a bit. One of the things is, as a sensor 
platform itself, it is actually going to be able to see targets 
and relay that information back to where a maritime force could 
be launching weapons as well.
    And if you understand how special forces operate, there is 
a nice advantage to that because if you have one group that is 
actually doing the surveillance and another one is doing the 
shooting, you don't give away your surveillance position when 
you shoot and then you can leave. So operating together, you 
are going to have a nice complement there.
    Without going into any classification, there are a lot of 
things that maritime forces can do from a sensing standpoint. I 
wouldn't want to go into detail here; the committee I am sure 
is well aware of those. That information can be used to make 
bombers more effective and actually also help protect the 
bombers. So you can see that these different forces are 
supposed to have--particularly when you are talking about 
undersea forces--have their own kind of stealth, a different 
kind of stealth but they are a stealthy force. You put those 
together, and it provides a very complex environment for an 
adversary to believe that they could defeat us. That is useful 
not only actually when you go to fight, but when someone is 
trying to think about fighting, they might want to give it a 
second thought and say: You know, they have so many different 
ways they can deal with us; we might think we have a leg up, 
but in reality, we can't be sure because particularly when they 
put these capabilities together, we have no idea just how 
significant those forces, the synergistic capabilities that 
would come from bringing those forces together, would be.
    Mr. Gunzinger. Back when the debate was hot and heavy over 
whether or not we should start a new program, and I was still 
in the Department of Defense, the Air Force started looking at 
the problem as a families of systems problem. It is not--it 
wasn't rhetoric, and it is not rhetoric today. This isn't 
about, what should the Air Force buy to maintain its 
capability? It was, what does the joint force need to be able 
to maintain his capability to strike an enemy deep, to threaten 
and put at risk all of his most significant targets.
    Family of systems encompasses airborne electronic attack, 
penetrating ISR capabilities, service-based capabilities, 
carriers, submarine launch, cruise missiles, the whole family. 
So this was--it was born out of a concept to develop the future 
of long-range strike family of systems and also to figure out 
how it would be integrated in joint operations, not just what 
it could do to improve Air Force operations, but the joint 
force operations for the future. So I think that is a very 
important thing to keep in mind as you assess the value of the 
LRS-B. It hopefully will be able to execute missions in support 
of the Navy, for example, anti-surface warfare. Why not have 
the LRS-B capable of launching more LRASMs, Long-Range Anti-
Ship Missiles, in the future? They can carry a lot of them, I 
hope. They will be able to cover large areas at sea and will 
have great sensors for wide-area surveillance, a perfect 
supporting mission for the Air Force to support the Navy. It 
may even be able to do future air dominance. Given enough 
space, weight, power, and cooling capacity, perhaps it could 
carry air-to-air missiles and, in the future, lasers to help 
support not just the Air Force but the Navy to counter enemy 
aircraft.
    Mr. Forbes. The gentleman from Texas, Mr. Conaway, is 
recognized for 5 minutes.
    Mr. Conaway. Thank you, Mr. Chairman.
    Thank you for being here.
    Being the only CPA [certified public accountant] on the 
subcommittee panel, I'm trying to do the math. The original 
version was $550 million a copy? At just--$31 billion or $33 
billion was the original cost. How do you buy 100 at $550 
million apiece for $33 billion? And how does that get less at 
$41 billion or $58 billion?
    Mr. Gunzinger. Right. Well, the answer is, you don't. The 
$550 million number was procurement costs in fiscal year 2010 
dollars. It did not include EMD, and of course, it didn't 
include inflation that will occur year by year. Plus, the 
number that you are citing--I think $33.1 billion--that was 
between 2015 and 2025. I am pretty sure.
    Mr. Conaway. So you are not buying 100.
    Mr. Gunzinger. Not by 2025, that is correct.
    Mr. Conaway. Okay. So, Ms. Grant, you mentioned that the 
Air Force is using a different procurement program that is 
successful. Maybe I got lost in the conversation, but the most 
recent--about the F-22 and F-35, how is the Air Force going to 
avoid--the years on the F-35 or the F-22, mid-1980s to 2006--so 
how does the Air Force avoid doing that same thing again?
    Dr. Grant. That is a very good question, and the first step 
of many in that is to go forward with a design that is closer 
to being ready to produce and go into flight test. And here I 
applaud what the Air Force says it has done, which is 
essentially to wait awhile on the award process. So instead--as 
was the case with B-2 in 1981, with F-22 in 1990, and F-35 in 
2001--you can do this either way, but in those prior programs, 
the Air Force did less analysis of the contenders prior to EMD. 
What they say they have now done building on some lessons of 
the past decade and using a different procurement organization, 
the Rapid Capabilities Office, which is a joint body between--
obviously run by DOD--but with DOD and Air Force leadership.
    Mr. Conaway. How does that circumvent the normal 
procurement process?
    Dr. Grant. It is within the process, but it would have----
    Mr. Conaway. Is that the same group that did the MRAPS 
[mine-resistant ambush-protected vehicles] and body armor?
    Ms. Grant. They apparently have done a great many things, 
but I am not sure of those specifically. Once this is done, if 
I may just address the case of Long-Range Strike Bomber, the 
Air Force says they have used a smaller team. They have funded 
both teams to do much more extensive risk-reduction work. So 
they have asked them to analyze not just how this aircraft will 
look and fly and meet some minimum standards, but to look 
several layers down into the produceability and 
maintainability. That is a very important step one. Sir, as you 
rightly point out, there are many steps to come with this, but 
moving into EMD with a more mature design is the best possible 
start for this to really set a new path and get us the 
capability more quickly and on cost.
    Mr. Conaway. From a complexity standpoint, the F-35 was a 
more complex platform than this or less complex?
    Dr. Grant. A difficult analysis to make. You know what? 
They are both very complex aircraft. All right? I would say F-
35 is more complex because of its tri-service and allied 
requirements. And one more thing I think is important for us to 
understand: The Long-Range Strike Bomber will build on the 
lessons of at least the past two decades in development of 
stealth, integration of AESA [active electronically scanned 
array] radar, and many other things. So I think we are looking 
at a bomber program that this time is building on things that 
are already in hand, maybe even some things you and I don't 
know about, but that they know about and are able to put this 
into production more quickly. So I think they have done--by 
using more mature technology than we have seen in cases where 
technology had to be developed to meet the requirements, we see 
really a conservative approach to a great new capability.
    Mr. Conaway. Okay, is it fair to say, without describing 
what we are talking about, that there were certain breakthrough 
technologies on the F-35, that you won't have to reinvent that 
wheel on the bomber, that would shorten the delivery time?
    Dr. Grant. Right. Obviously, as we haven't done source 
selection, we don't know what we are talking about, and I'm not 
an official. But you are absolutely on the right track. What B-
2, F-22, and F-35 asked was to develop technologies in order to 
meet those thresholds. Long-Range Strike Bomber I think will 
have some great new stuff but is able to take advantage of more 
mature technology development in several key areas, and that 
should make a difference.
    Mr. Conaway. I yield back.
    Mr. Gunzinger. I absolutely agree, the B-2 and F-22 are 
more inventions than the LRS-B. LRS-B is more of an integration 
program where it is taking very mature technologies from other 
programs, maybe even actual components and engines, and 
integrating it into a new platform that is going to be much 
more capable than the B-2 and other systems.
    It is also I think important to remember that it has been 
about 10 years since the 2006 Quadrennial Defense Review [QDR] 
said: Let's start a new program for a penetrating bomber. And 
there was a previous program to do that that was canceled in 
2009. But the knowledge and technologies and the skilled 
workforce that were dedicated to that effort, they are still 
around, and they were able to pour a lot of that knowledge and 
technology into this program.
    Mr. Forbes. The gentleman is exactly right, though, on the 
cost situation. We are going to have to have a discussion with 
the Air Force. I don't think there was any bad intention or 
anything there, but still those numbers, it is a big gap from 
33 to 58 and then back down we think now to about 41, but still 
a huge discrepancy.
    The gentlelady from Florida, Ms. Graham, is recognized for 
5 minutes.
    Ms. Graham. Thank you so much. Thank you again for being 
here today.
    We talked a lot about what has gone into developing the 
proposed next generation of LRS [long-range strike]. Are we 
also looking at the adaptability for the future so that whoever 
is seated here 10 years from now isn't talking about an already 
obsolete LRS that we are again having to invest in building new 
aircraft? Something I think we all should be focusing on is we 
know what we are capable of today, but are we looking into the 
future in order of adaptability so we are not pouring 
additional--huge amounts of resources into future aircraft 
sooner than we need to? Thank you so much.
    Dr. Grant. If I may start with that, an excellent question. 
I think two things are highly important: One, our aircraft 
today are so information dependent. This new bomber will have a 
tremendous advantage because it is not like the B-2 that needs 
to be upgraded or B-52. It will come out with that open mission 
system architecture. That means that we can add devices in 
almost as easily as if you add an app [application] on a phone. 
So that is a tremendous advantage in keeping it relevant.
    The Air Force has also said that they intend to fund the 
science and technology development for continual upgrades and 
to feed that funding line through. So, yes, I think we have 
every confidence that it will be able to be upgraded and stay 
relevant across that 40-year service life.
    Mr. Gunzinger. Five years ago, before there was an LRS-B 
program--I have to caveat, I like that--CSBA [Center for 
Strategic and Budgetary Assessments] put out a report for the 
need for a new bomber and how it might be developed in a 
different way. We recommended that the first thing you do is 
ensure it has enough space, weight, power, and cooling so you 
could adapt it to new missions, integrate new components in the 
future, perhaps lasers, for example, to take on the air-to-air 
missions.
    But the second thing is to develop it so you can upgrade it 
or integrate block upgrades over time, to refresh its 
technologies, to be able to counter new threats as they emerge, 
to take on new missions. If you design it with the idea that 
you are going to be able to do these block upgrades over time, 
then you greatly reduce the risk that when it is produced and 
it is on the ramp, it is not going to be outdated. The second 
thing is it helps you to spread the cost over time because you 
buy new capabilities for these block upgrades rather than try 
to get everything into the first model.
    General Elder. Not to beat a dead horse, but one of the 
things about this airplane is that they really were smart about 
this. I was pulling out some testimony from Mr. LaPlante, who 
is the acquisition head for the Air Force, and this has been a 
big deal for this program, this concern about the fact that 
when they buy bombers, they have them for a long time, and they 
want to make sure that they can continue to bring these new 
capabilities in.
    The other thing that Dr. Grant pointed out is about this 
information piece, but the other thing I realize now--I don't 
know what the percentage is, but the percentage cost of an 
airplane these days, actually any system, military system, a 
huge amount is actually caught up in the software, the code 
that is being written for these systems. What they are 
enforcing here is the use of what the Air Force calls open 
mission systems. The Navy has a slightly different name. It has 
actually been mandated by OSD [Office of the Secretary of 
Defense], by the Department overall, that you have this. What 
it allows for is plug and play. They have different levels of 
integrated capability, but just ask for an iPhone or an 
Android, someone else can write the application besides Apple 
or Google, for example. You have the same thing here, and when 
someone has a better idea, they will be able to write that, 
test that module, and then plug it in. They won't have to go 
through the complete end-to-end test, which is what has driven 
us to these block upgrades in the past, where it was 
incrementally done. Now, as soon as you can write these things, 
you can plug them in. You also can also add new systems to the 
airplane because they are working with open standards in terms 
of the plugs of plug and play for actual boxes that would go 
into the airplane.
    So as we look to the future, as I mentioned to people in 
the past, the people in this room have no idea what this 
airplane is going to be able to do because we haven't given 
them to the captains yet. When the captains get a hold of this 
airplane, they are going to say, well, we can do this with 
this; the airplane will do this. The things that the B-2 does 
today, a lot of those things were never imagined until it 
actually got into the hands of these brilliant young captains 
to think about how to do this. The same thing is going to 
happen with this. The difference is that when a captain in 2025 
gets a great idea, if I could just write a piece of software, 
it would really help me out, they are going to be able to do 
that in 6 months to a year, instead of having to wait for a 3- 
or 4-year block upgrade. That is going to be the huge 
difference with this platform.
    Ms. Graham. All three terrific answers. Thank you very 
much. I appreciate it. I don't have any more time, but thank 
you for being here. Again, I appreciate it.
    Mr. Forbes. Colonel Cook is recognized for 5 minutes.
    Mr. Cook. Well, I am going to apologize in advance; I am 
going to be the cynic here. And, once again, at least with me, 
I am not as smart as you guys. If you are going to talk with a 
bunch of acronyms that I don't understand, right away my eyes 
start to gloss over. If you could kind of ``keep it simple, 
stupid'' for me, I would appreciate it a little bit.
    You know, I am probably one of the biggest hawks on this 
committee, but it bothers me about things in the future and the 
amount of money. And maybe I have had too many briefs about the 
number of missiles that the Chinese are going to throw against 
aircraft carriers and cruisers and what have you. And they are 
going to build as many as--maybe one aircraft carrier, they 
might be able to build, I don't know, 5,000 missiles. I am just 
looking at it from the CPA standpoint, and maybe that is--and 
that is ironic because I am an infantry guy, but in terms of by 
the time you get there and the changes in technology, I don't 
know if we can do that, predict the future.
    I am still upset that we cut back on the F-22s. I thought 
it was a great airplane. I think everybody is going back: Oh, 
we shouldn't have done that. Well, we did that. It was a 
mistake. Can you tell me why, when the F-4 Phantom came out, we 
said, ``Oh, we don't need any machine guns on that plane''? 
This was going to be missile to missile; this is the new 
warfare. This is talking to a ground guy in Vietnam that was 
probably saved because they modified that airplane before some 
of you were born--let me correct that, before most of you in 
this room were born. But that was a failure to anticipate what 
was going on with the Air Force.
    I am a big, big supporter of airpower and what you have to 
do. I just have--I don't know if we can predict the future. I 
would hope that we could have modified the B-1 and the B-2. It 
scares me when you said we only are going to have 12 flights of 
B-2s--God almighty--with all of the missiles of the Chinese. 
Aren't the Russians still flying turbo prop [propeller] bombers 
around scaring everybody when they come down the English 
Channel, or maybe that is--but how old is that aircraft? It is 
not at as old as me, but close. And I am saying they modified 
that, just like the Chinese, one of the figures I heard was--
what?--their budget was 300 percent in the last--increase--in 
the last 10 years. So I think when we are talking about some of 
these programs. And as I said, I have been around this planet 
for a long while. I have seen the F-4, and I have seen that 
plant on the Connecticut River in the ranking member's district 
where they spent, I don't know how much money, Pratt & Whitney, 
to develop a nuclear energy--excuse me, a nuclear engine for an 
airframe. I won't tell you how many years and how much money 
that went in. You can tell where that went.
    So I have some serious reservations about this. I think we 
have got to get it right. And I just hope because the more you 
stick on there and everything else, it gets so expensive that 
it's going to fail the budgetary wars. And everybody is going 
to come down and say, what are we going to cut? And I still 
want more C-17s, I want more lift for marines who have got to 
go across the Pacific. We can't do it, but you definitely got 
my attention when you said we are going to go have 12 sorties 
of B-2s. We have a real problem.
    I am going to support it. I just want to make sure we do it 
right, and I am going to--I notice your name, sir, is very, 
very close to how I feel right now. And maybe I am the 
gunslinger here. And you probably have heard something 
comparable. I don't have a question. I think what you are 
doing--but we have got to get this right.
    The other thing is we don't have 5 years, 10 years, 20 
years, because this is a very, very, dangerous--and I wish we 
could do it just like that. If it was World War II, how long 
did it take to get the B-29 on line? When we had planes flying 
around at Pearl Harbor day, the B-18--anyone ever seen that? 
Whatever happened to B-36, the B-47, the B-58 Hustler? I could 
go on and on, and I was a marine, but I read a few Air Force 
books. So thank you very much for your presentation. Sorry I 
vocalized so much.
    Mr. Forbes. And Paul finishes that with, isn't that true? 
That is his question.
    Mr. Knight is recognized for 5 minutes.
    Mr. Knight. Thank you, Mr. Chairman.
    Boy, I love the colonel. He brings up a lot of good points, 
though, he does. In the 1950s, we built the Sentry series in 
about 5 years, put F-100s in the air, put F-106s in the air in 
about a 5- or 6-year period. And I bring this up all the time, 
that building something today with today's knowledge and then 
thinking 30 years from now might not be the way we should do 
this. What we might want to do is look back at the 1950s, look 
back at the 1960s, when we were building multiple aircrafts 
over a shorter time period. If we are going to build something 
today and fly the wings off it--we are going to fly the F-35 
for 50 years. There is no doubt in my mind that we are going to 
do that. We are building a bomber right now that we are 
projecting probably for a 40- or 50-year timeframe. And then 
probably in 20 years from now, we will start talking about a 
new bomber.
    So I might ask that we think about a new strategy of not 
flying the wings off and of not buying 100, and then when we 
need them or when they are down--and I have Edwards Air Force 
Base in my district. I get to watch the B-2 all the time 
because there is always one or two of them over there. That 
means if we have 20 of them and 2 of them are at the test 
facility, those are not 2 that are capable of going out. And we 
have to refurbish, and we have to go through the whole process. 
I have seen this, and I understand that we have learned a whole 
lot from the B-2 to what we are going to do with a Long-Range 
Strike Bomber with stealth technology, with the reapplication 
of the skin, with all these types of technology.
    But I would just ask if this is the proper--I will support 
this as long as we keep the price down and it accomplishes the 
mission. But is this the proper stance that America should look 
at? Or maybe should we look at two or three aircraft in a 50-
year timeframe, where they overlap, and we are not looking at a 
10- or 12-year time period of when we are thinking about it, 
when we are building it, and when we are testing it, and then 
it goes IOC [initial operating capability], because this 
aircraft will not be in the air for that young captain to fly 
until about 2025? That means today, until then, we have the B-
52, the Bone [B-1], and the B-2. So that is my question.
    General Elder. Congressman Knight, your point is actually 
accurate, and I believe, I'm not read in on the program, but 
based on everything I have heard about the program and the 
public testimony that--why I keep referring back to this open 
mission systems and the open architecture. It is a physics 
problem basically to design a stealth platform in terms of 
plan, form, and the basic shape that actually makes it 
stealthy. There are other things you can add to it that make it 
stealthier, but in terms of adding the capabilities to the 
platform, in the past, the problem that we had was that if you 
were going to try to change these things, you had to break into 
the airplane basically to do it. What they realized after the 
work, particularly with the B-2, was that they needed to have a 
way that they could make substantial capability improvements to 
the airplane, whether that was a weapon system. You have to 
remember so much of this is involved with the code, but it also 
has to do with communications. If you need to put a new 
aperture, as they call it, a new antenna, an aperture on the 
plane, it would require this major amount of testing. They 
don't have the problem with the LRS-B, and they have already 
demonstrated--all three of the vendors involved with this have 
demonstrated their ability to comply with these open mission 
standards, and they have various different tests that show that 
they can make this work. So, in effect, they are actually doing 
what you have suggested because the airplane that is built in 
2025 will be different than the one that is built in 2030 in 
terms of capabilities it has, but the neat thing is that they 
will be able to take the one that was built in 2025 and bring 
it up to that 2030 capability, because they can put the same 
software and because of the way it has been designed in the 
first place.
    Mr. Knight. General, I am not going to cut you off, but I 
am going to grab some time here. I understand that, and 
software is what F-35, F-22, to much of the extent F-16 and F-
15 do today. You cannot change the structure of an aircraft. So 
if I built the structure of an aircraft today, that will be the 
structure that I have in 2050. That will be it. So if something 
changes in that time period, that they can see our bombers 
quicker or they can address our bombers quicker, because of the 
structure, I am stuck, I am done. I might be able to do some 
sort of software, I might be able to do some sort of jamming 
upgrades, but if something happens in the next 40 years that 
stops me from doing that because of the structure, I am stuck.
    Mr. Gunzinger. Very quickly, sir, you are right. It is very 
difficult to change the plan, form, shape, and size of an 
aircraft after it has been designed and produced. You can do 
things like give it new codings. You can put maybe new leading 
edge treatments on it, things that can improve its stealth 
characteristics. You might also be able to do some things to 
give it active as well as passive measures to improve its 
ability to survive. But like we all understand, I believe, 
stealth is the product of active and passive measures, and not 
just one aircraft but multiple platforms operating together to 
include cyber operations to create the environment where you 
defeat the enemy's kill chain, the air defense kill chain. And 
it does not remain invisible, but all you have to do is prevent 
him from getting a good shot.
    Mr. Knight. I appreciate that, and I appreciate the chair 
letting me go over just a little bit. I understand that, and I 
will be highly supportive of this, again, if we can stay within 
the budget and within the parameters we have set forth. I just 
think that this should be a discussion that we move forward 
with in the future, that we talk about these programs that 
overlap more than talking about a program that--now the B-2 is 
25 years old. I was there at the rollout, and I was there at 
the 25th anniversary. It is still our top bomber with 10 or 15 
years from where we are going to get to the next bomber. Thank 
you.
    Thank you, Mr. Chair.
    Mr. Forbes. Well, we want to thank our witnesses for being 
here today. As we mentioned at the outset to each of you, we 
would love to give you some time to do a wrap-up of what you 
think we need to have on the record for this program. So we are 
going to give you that time now if you need it. And any 
clarifications for anything on the record or any additions, we 
would love to hear from you at this time.
    General, we will once again start of off with you, and we 
will finish with Dr. Grant.
    General Elder. Well, Mr. Chairman, and the committee, 
again, I really do appreciate the opportunity to be here. This 
platform, I am not read in on this platform. I was very 
familiar with the airplane that was going to be built in 2018, 
and they made a conscious decision at that time that they were 
going to lock in the requirements and they were going to work 
with technologies that were well known, well developed. When I 
was still on Active Duty, I remember I had some great ideas 
myself. I said that this would be a great thing to have on this 
new airplane, and they said: We will put it into the mix for a 
possible adaptation down the road, but it is not a proper TRL 
[technology readiness level] level or the level of 
sophistication that we are willing to consider because we only 
want to bring things into this platform that we know will work 
when we integrate them together.
    But at the same time, they said: Don't worry because we are 
building this airplane so that these new capabilities can be 
added later on. We have gone to great efforts to make sure they 
do that, and they have had programs to continue to do that.
    As Dr. Grant pointed out, the teams that developed the 2018 
bomber, the Department of Defense right away provided money to 
keep those teams working, so as they put together the new, 
which then became the LRS-B, so these teams have been 
consistent for a long period of time, which is part of the 
reason that I am very confident that this airplane is going to 
have the great capabilities that we are attributing to it. And 
I also believe it is going to have the adaptability and, from 
talking to people who are involved with the program, who say: I 
wish I could tell you about the program, I wish I could tell 
you. It is just absolutely phenomenal what they have done with 
this program. I have talked to logisticians, who are usually 
the biggest ones to complain about a program, because they say 
they forgot about us. And they said: It is phenomenal. They 
thought about us. They thought about how to maintain it. There 
has been a big push to keep high emission-capable rates, which 
means that you have to make it easy to maintain. All these 
things have been worked in.
    So while I haven't been read into the program, the people I 
know that are very familiar with this--and I guarantee would 
have no qualms at all to complain to me if they thought there 
was an issue--are just ecstatic about this. I have always liked 
to think of myself, I grew up in Strategic Air Command, and I 
was someone who thought a lot about deterrents. And with the 
fall of the Berlin Wall, there was a lot of people who thought 
we did not need to think about deterrence anymore because we 
didn't have a Soviet Union. They were right that we didn't need 
to worry about the Soviet Union anymore, but they were wrong to 
think that we didn't need to worry about someone else coming 
and finding some way to attack us. And we have had these 
various different ways. We have grown much more sophisticated 
in terms of our understanding of how to use military force in 
concert with other instruments of national power to be 
effective, and we have seen not only bombers but all of our 
military force.
    But I will try to highlight the bombers, how they have been 
used in Bosnia, in Kosovo, in Afghanistan, in Libya, in Iraq, 
to be able to do things that we typically don't think about the 
airplanes doing. And, again, this goes to those great captains 
who say: Hey, you know, I know what we can do this with 
airplane. And then you have some great strategic leaders or 
operational leaders who say: Boy, now that you have showed me 
we could do that, we can work this thing in, and we can make it 
effective.
    The LRS-B provides a platform. It is kind of like, I like 
to use-- You buy an iPhone or you buy an Android--it doesn't 
matter--and it gives you capabilities to bring all these 
different apps that you can put on. And as Mr. Gunzinger was 
pointing out, these apps--there are a lot of apps. They can be 
electronic warfare apps. They can be ISR apps. They can be 
bombing apps. They might be cyber apps. All these things are 
possible because this particular platform was designed not only 
to be something that is easily adaptable, but it also was 
designed to be part of a family of systems. So this ability to 
interoperate with maritime forces, with ground forces, with 
space forces, it really is an important aspect of this.
    And whereas the B-2 was largely developed, initially at 
least, that it would try to go in alone and unafraid and that 
is why you weren't going to see it because there wasn't much 
around. This time they are recognizing you are going to want to 
use this platform in cases where people are looking for you, so 
you are just going to make it really difficult for them to pick 
you out. And because the plan form of this thing, that is the 
physics of it, it makes it very difficult for acquisition and 
particularly for the radars that are actually used to target, 
to be able to hit, but it is bringing in all of the different 
types of stealth. It is stealth across the entire 
electromagnetic spectrum to make this thing very hard to go 
through as, Mr. Gunzinger, the kill chain. You can't--not just 
enough to see it, to actually put a weapon against, it is going 
to be very difficult. And I believe from the people that I have 
talked to, although I can't personally witness to because I 
haven't seen it, but I believe that the Nation is going to be 
very impressed when they see this airplane. And I believe that 
the Department is going to be able to use this platform in 
conjunction with the Navy, the Army, and the Marine Corps to do 
some very good things for national security for the Nation.
    Mr. Forbes. Thank you, General.
    Mr. Gunzinger.
    Mr. Gunzinger. Yes, very quickly. We did essentially end up 
with a silver bullet force in the B-2s in the 1990s, and pretty 
much the F-22s, I would have continued production of that as 
well. Because we devalued stealth, the air defense strike 
wasn't there, but today it is. And it is just going to be 
increasing in the future, and these technologies are 
proliferating, so stealth increasingly is going to be the price 
of admission into future fights.
    The second is long range and large payloads. Aircraft that 
can fly from more distant airfields out of the immediate threat 
of the short- and medium-range ballistic missiles and cruise 
missiles is going to be very important to us. That might 
reshape the kind of force we want in the future.
    The third, we have said it has been about 10 years since 
the 2006 QDR. It is going to be about another 10 years for LRS-
Bs to show up in numbers. That period could be longer. We 
focused on, should it be 80 to 100 or something more? And I 
agree with my fellow witnesses that, yes, I think the number is 
eventually going to be much larger than that, but that is a 
2020s decision. Of more importance to me is, how quickly can we 
field this force? And if the yearly procurement rate is set 
pretty low due to budget problems, budget caps, budget 
constraints, then it is just going to extend into the future 
our long-range penetrating strike capability gap. So that is 
something that you might focus on as well. Thank you.
    Mr. Forbes. Dr. Grant, we are going to let you have the 
last word.
    Dr. Grant. It comes down to two things: First, your 
excellent question. What happens if we don't get a new bomber? 
If we don't get a new bomber, our adversaries will hide and 
keep in sanctuary hostile military capabilities, like anti-
satellite weapons, like potential weapons of mass destruction. 
And these capabilities will threaten our national security and 
the world we live in, and we won't be able to do anything about 
it.
    Second question, should we buy this bomber, the one that is 
coming to down select? And I say yes. I think this is the one. 
But from what the Air Force has said, they have conducted more 
risk reduction. They have taken a new approach, and they have 
built on tremendous technologies from other programs. This is 
the one to buy. We can't afford the risk of waiting. Thank you 
very much.
    Mr. Forbes. We want to thank all three of you for being 
here. We give you, as I told you before, an open invitation as 
you see this process. What Mr. Cook raised, what Mr. Knight 
raised, great questions. We actually posed some of these to 
them before this hearing because these are important things to 
do.
    Mr. Courtney and I recently were at some briefings, and I 
think we were both informed and both concluded that probably 
cutting that F-22 production line was one of the worst mistakes 
we made for national defense in some time. So we need to get 
these things correct and make sure that we are able to produce 
them.
    But we thank you for giving us your expertise, your wisdom, 
and your knowledge on this. If no one has anything else, then 
we are adjourned.
    [Whereupon, at 3:10 p.m., the subcommittee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                           September 9, 2015
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 9, 2015

=======================================================================

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

            
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 9, 2015

=======================================================================

      

                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. The LRS-B will have a much higher per-unit cost than 
our current fighter aircraft. However, achieving the strike power of a 
single long-range bomber takes dozens of fighters. Given that operating 
a dozen fighter aircraft presents an operation and sustainment bill far 
in excess of what it would take to support a bomber, What can the Air 
Force and DOD do to more clearly articulate a long-term enterprise view 
for the LRS-B?
    General Elder. The fall of the Berlin Wall and the collapse of the 
Soviet Union changed the focus of the entire DOD from deterrence and 
preservation of global stability to expeditionary operations focused on 
regional instabilities and restoration of regional stability. No longer 
did the U.S. face a global threat, and with the implementation of 
Goldwater-Nichols, combatant commanders rightly emphasized planning for 
regional contingency operations with assigned forces rather than 
depending on out-of-area capabilities such as long-range strike 
bombers. The success of Desert Storm strengthened the belief that long-
range airpower had become a niche capability, although this perspective 
failed to consider the impact of bombers flying from bases outside the 
region. Operations in Bosnia and Kosovo reinforced this misperception. 
Operations in Afghanistan and Iraq again highlighted the value of 
bombers. LRS-B and the legacy bombers are not niche capabilities--
sufficient numbers are important.
    It is important to ensure that the American people, particularly 
key decisionmakers, understand the unique role of long-range strike 
bombers to the success of U.S. military operations abroad. 
Specifically, long-range strike bombers can reach targets across the 
globe without the need for costly and time-consuming expeditionary 
deployment. This provides the Nation a rapid response capability at the 
outset of a crisis which can be transformed later into one providing 
persistence strike capabilities for extended operations.
    LRS-B benefits from the Open Mission System (OMS) lessons gained on 
other Air Force platforms. The OMS approach will enable LRS-B to 
incorporate new technologies throughout its long service life at much 
less cost than its predecessors. To put this in perspective, the 
capabilities of today's bomber fleet are significantly greater than the 
capabilities these same platforms possessed when they first entered 
service. The same evolution in capability will be true for the LRS-B, 
but upgrades will occur more often and at less cost.
    With a fleet properly sized to meet Combatant Commander demands, 
which should equate to one combat-coded bomber squadron for each of the 
ten Expeditionary Air Forces, the Air Force will also be able to obtain 
economy of scale when sustaining the LRS-B fleet, making it less costly 
to operate.
    Finally, the LRS-B will provide never-before-seen advantages for 
operations in contested (anti-access/area denial) environments. 
Leveraging low probability of intercept (LPI) networking capabilities 
developed for use in current fighter platforms will enable the LRS-B to 
employ new concepts of operation which will increase its survivability 
and mission effectiveness.
    Ms. Bordallo. We have learned a lot over the past 14 years of 
operations in Afghanistan and Iraq about the need to securely link ISR 
data with responsive firepower and access to the command and control 
network. The MQ-1 Predator and MQ-9 Reaper were pioneers in this 
regard--linking sensors, firepower, and data links in an incredibly 
potent fashion. What steps need to be taken to ensure the LRS-B 
harnesses a similar approach?
    General Elder. Earlier bombers were initially designed to fly as 
standalone platforms incorporating all the necessary sensors and self-
protection capabilities to ensure individual bombers could deliver 
their weapons on target using only their organic capabilities. When 
datalinks and other technologies which provide connectivity to external 
sources of information were developed, the legacy bomber fleets were 
modified to incorporate these new systems. This postured them to 
operate more effectively as part of large force packages and employ 
precision weapons with ``real-time'' information. But in general, these 
external data capabilities were ``strap on'' modifications rather than 
fully integrated system solutions. The LRS-B was designed to be a key 
element in the future networked force, so it will incorporate existing 
stealth communication technologies equal to, or better than those on 
today's most advanced platforms. Unlike legacy bombers, these 
capabilities will be fully integrated into the operation of the LRS-B 
weapon system. With the use of Open Mission Systems (OMS), the LRS-B 
will be able to easily incorporate new C2 network capabilities, links 
and other sources of data as they become available, and fully integrate 
new external sensors and other sources of information. In short, next 
steps to ensure the LRS-B can securely link ISR data with responsive 
firepower and access to the command and control network throughout its 
service life should focus on advancing and implementing open mission 
systems to the greatest extent possible.
    Ms. Bordallo. The LRS-B will have a much higher per-unit cost than 
our current fighter aircraft. However, achieving the strike power of a 
single long-range bomber takes dozens of fighters. Given that operating 
a dozen fighter aircraft presents an operation and sustainment bill far 
in excess of what it would take to support a bomber, What can the Air 
Force and DOD do to more clearly articulate a long-term enterprise view 
for the LRS-B?
    Mr. Gunzinger. While unit costs and operation and sustainment (O&S) 
costs should inform development of the future force, DOD and the Air 
Force should articulate how requirements for bombers and fighters are 
driven by different operational needs. They should also explain how 
fundamental aeronautics principles govern the design of advanced 
military aircraft. Combat aircraft designed to carry bomber-sized 
payloads over very long ranges may not have the ability to out maneuver 
surface-to-air and air-to-air threats. Similarly, combat aircraft 
designed to optimize their stealth characteristics--such as the B-2 
``flying wing''--may not be highly maneuverable.
    I anticipate that DOD has sought to optimize the LRS-B's stealth, 
range, and payload capabilities simultaneously. These characteristics 
will greatly increase our Nation's penetrating strike ``magazine 
depth.'' LRS-Bs should also be capable of carrying large, specialized 
munitions that are effective against hardened or deeply buried targets 
that cannot be carried in the internal weapons bays of much smaller 
fighter aircraft.
    That said, pairing heavy strike aircraft such as the LRS-B with 
high-performance fighters will increase options for U.S. commanders and 
complicate the defensive challenge for our Nation's enemies. For 
instance, high-performance fighters can escort penetrating bombers or 
help suppress enemy defenses to allow LRS-Bs to achieve their missions.
    Bottom line, while fighters and bombers have different unit and O&S 
costs, they are complementary capabilities. DOD and the Air Force 
should articulate a case for why both are needed by our Nation's 
warfighters.
    Ms. Bordallo. We have learned a lot over the past 14 years of 
operations in Afghanistan and Iraq about the need to securely link ISR 
data with responsive firepower and access to the command and control 
network. The MQ-1 Predator and MQ-9 Reaper were pioneers in this 
regard--linking sensors, firepower, and data links in an incredibly 
potent fashion. What steps need to be taken to ensure the LRS-B 
harnesses a similar approach?
    Mr. Gunzinger. MQ-1 Predators and MQ-9 Reapers are the product of 
ad hoc requirements and development processes. Their C2/ISR linkages 
are far more ``clunky'' compared to what should be expected of the LRS-
B. Moreover, while Predators and Reapers were effective in Iraq and 
Afghanistan, they are not well suited for operations in contested or 
denied environments. LRS-B design teams have the advantage of applying 
lessons-learned from development of the MQ-1 and MQ-9 as well as the 
most advanced stealth airplanes in the world, the B-2, F-22, F-35, and 
B-2. They also have considerable experience in designing advanced low 
probability of intercept/low probability of detection (LPI/LPD) 
communications systems. As a consequence, it should be expected that 
LRS-Bs will have advanced data link technologies--high bandwidth, low 
latency, LPI/LPD--and associated methods for fusing information. These 
capabilities would enable LRS-Bs to maintain near-real-time awareness 
of the threat environment using information from off-board and on-board 
sources. The LRS-B's sensor suite should also be a significant step 
forward from anything the Air Force now operates. The combination of 
advanced sensors, a state-of-the art communications suite, and large 
weapons capacity would make the LRS-B much more than a ``bomber.'' It 
should have the potential to act independently with a vast array of 
weapons, perform as a key node that provides real-time situational 
awareness to other penetrating capabilities, and conduct net-centric, 
collaborative warfare operations as part of the long-range strike 
family of systems. In summary, the LRS-B should be capable of doing 
anything MQ-1s and MQ-9s can do with greater speed, range, payloads, 
and in highly contested operational conditions.
    Ms. Bordallo. The LRS-B will have a much higher per-unit cost than 
our current fighter aircraft. However, achieving the strike power of a 
single long-range bomber takes dozens of fighters. Given that operating 
a dozen fighter aircraft presents an operation and sustainment bill far 
in excess of what it would take to support a bomber, What can the Air 
Force and DOD do to more clearly articulate a long-term enterprise view 
for the LRS-B?
    Dr. Grant. Previous analyses have shown that one long-range bomber 
can often hit more targets than a dozen or more fighters. Add in extra 
supporting aircraft and the efficiency of the bomber stands out. 
Aircrew and maintainers are key drivers in combat aircraft sustainment 
costs. Crewing a dozen fighters may require up to 16 pilots based on 
war readiness manning. A bomber like the B-2 may require only 2-4 
aircrew to meet the same standards. This is just one quick example of 
how bombers provide significant aircrew cost savings from an enterprise 
perspective.
    Ms. Bordallo. We have learned a lot over the past 14 years of 
operations in Afghanistan and Iraq about the need to securely link ISR 
data with responsive firepower and access to the command and control 
network. The MQ-1 Predator and MQ-9 Reaper were pioneers in this 
regard--linking sensors, firepower, and data links in an incredibly 
potent fashion. What steps need to be taken to ensure the LRS-B 
harnesses a similar approach?
    Dr. Grant. Building a new long-range strike bomber will actually 
make it easier to ensure the bomber has sensors and datalinks to 
securely link to the command and control network. Software-programmable 
communications, the flexibility of AESA radar, and even potential 
laser-based communications links can be part of the bomber from the 
start. The Open Mission Systems practice developed by the USAF and used 
on systems like the B-2 will ensure that the new LRS-B can add in new 
communications, sensor and processing capabilities as technology 
advances.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
